Case 117495 CLERK OF THE APPELLATE COURTS Filed 2019 Sep 11 PM 4:45

01 CR 634
IN THE SUPREME COURT OF THE STATE OF KANSAS

No. 117,495
State of Kansas,
Appellee,
v.
Carlon D. McGinn,
Appellant.

ORDER
The court has considered and denies Appellant's Petition for Review filed August
20, 2018.
The court has considered and denies Appellant’s Pro Se Supplemental Petition for
Review filed September 24, 2018.

BY ORDER OF THE COURT this 11th day of September 2019.

/s/ Lawton R. Nuss
LAWTON R. NUSS,
Chief Justice

X KIOSK 4
ined in as Kansas Department of Corrections.
ixis Advance® |

ocument : State v. McGinn, 2018 Kan. App. Unpub. LEXIS 551
Goto ^

<( 3of4

Page

Carlon d. McGinn

Page #

lof3

V/

Search Document Q

Results list

© State v. McGinn, 2018 Kan. App. Unpub. LEXIS 551
Court of Appeals of Kansas
July 20, 2018, Opinion Filed
No. 117,495
Reporter
2018 Kan. App. Unpub. LEXIS 551 * I 422 P.3d 687 | 2018 WL 3485725

CTATC r\X2 l/AMCAC
j I A 1 C ui

Ann*a!lAP V, CARLON D. MCGINN, Appellant.

rv/-vi, t

-----, * *

-------

Notice: NOT DESIGNATED FOR PUBLICATION.
PLEASE CONSULT THE KANSAS RULES FOR CITATION OF UNPUBLISHED OPINIONS.
PUBLISHED IN TABLE FORMAT IN THE PACIFIC REPORTER.

Pri„, History: tn, Appea, from
^fate v. McGinn. 366 P.3d 666. 2016 Kan,.
Disposition: Affirmed.

Core Terms
classified, comparable, sentence, menacing, felony, criminal history, district court, illegal sentence,
prior conviction, deadly weapon, out-of-state, assault, aggravated assault, nonperson, argues, score,
sentencing court
w— — e.11

rpninn n. McGinn. aDDellant, Pro se.

X KIOSK 4
. Maloney, assistant district attorney, Marc Bennett, district attorney, and Derek Schmidt,
Matt]
attorney general, for appellee.
Judges: Before STANDRIDGE, P.J., GREEN and MCANANY, JJ.

Opinion

MEMORANDUM OPINION
Per Curiam: Carlon D. McGinn

appeals the district court's decision to deny his motion to correct an

urt erred in classifying his prior Colorado conviction
illegal sentence. McGinn argues the sentencing co
offense for criminal
defined in r.in Rpv. 5tat. S 18-3-206 (2000), as a person
for menacing, as
history purposes. For the reasons stated below, we affirm.

Facts
In 2003, McGinn pled guilty to one

count each of rape and aggravated criminal sodomy. A presentence

investigation report revealed McGinn had a

criminal history score of B, based, in part, on a prior

district court sentenced McGinn to 554 months in prison,
Colorado felony conviction for menacing. The
the Kansas Sentencing Guidelines Act (KSGAL based on
the mitigated presumptive sentence under
McGinn's criminal history score of B.
In 2013, McGinn file a pro se motion to correct an

illegal sentence, challenging the [*2] sentencing

person felony in his criminal history,
court's decision to include his Colorado menacing conviction as a
offense. The district court denied the
McGinn claimed the court should have classified it as a nonperson
motion, finding McGinn invited any error by stipulating to his criminal history score at sentencing. On
appeal, we reversed the district court's ruling and remanded the case for a hearing on the merits of
nirkev. 3Q1 Kan. 1018, 1032,
McGinn's motion. Relying on our Supreme Court's holding in State_v.
defendant’s stipulation to criminal history at sentencing does not
350 P.3d 1054 (2015), we held a
improperly classified as a person or nonperson crime
preclude a later claim that a prior conviction was
Rfifi P.3d 666. 7016 Kan. App- Unpub. I FXI5 141, 2016
for criminal history purposes. State v. McGinn
WI 75R310. at- *7-3 fKan. App. 20161 (unpublished opinion).
district court appointed counsel for McGinn and held a hearing on his motion. McGinn
lorcety 530 M.S. 466, 120 S^Ct 7348, 147 L. Ed. 2d_435j2000i,
argued that under Apprendi v.
court should have classified his Colorado menacing conviction as a
and Dickey, the sentencing
comparable offense in Kansas. The State disagreed, arguing
nonperson offense because there is no
comparable to the Kansas crime of aggravated assault.
that the Colorado crime of menacing was
Following oral argument from both counsel, the district court denied McGinn's [
] motion. The court

On remand, the

substantially similar and comparable to the Kansas
held the Colorado menacing statute was
district court later denied McGinn's motion to reconsider.
aggravated assault statute. The

ANALYSIS
the district court erred by denying his motion to correct an illegal sentence. As he did
McGinn argues

JC KIOSK 4
conviction as a person crime because Colo. Rev. StaLJUik3c2Q6 is not comparable to KJLAJLk
3410 the Kansas aggravated assault statute in effect at the time of his 2000 crimes of conviction . The
State'counters that while the two offenses do not have identical elements, they are sufficiently similar
to constitute comparable offenses. Alternatively, the State argues that Cob. Rev. S®L£13=3=m <s
comparable to the Kansas crime of simple assault, K.S.A. 21-3408.
" k.s.a, 2017 Sudd. 22-3504(1). Whether a
"The court may correct an illegal sentence at any time
sentence is illegal under K.S.A. 22-3504 is a question of law over which the appellate court has
unlimited review, stare v. l ee. 304 Kan 41A 417 377 P.3d 415 (2016J. Likewise, whether a prior
conviction was properly classified as a person or nonperson

crime for criminal history purposes raises a

question of law subject to unlimited review. Dickey, 301 Kan, at 1034.
The term

"illegal sentence" is defined in K.S.A. 2017 Supp..22-3504(3}■

sentence: Imposed by a court without jurisdiction;
"(3) [*4] 'illegal sentence' means a
not conform to the applicable statutory provision, either in character or
that does
that is ambiguous with respect to the time and manner in which it is to
punishment; or
be served at the time it is pronounced. A sentence is not an 'illegal sentence' because of
a change in the law that occurs after the sentence is pronounced."
McGinn challenges his sentence based on the second definition of an illegal sentence: His sentence
does not conform to the applicable statutory provision in terms of the punishment authorized.
Specifically, McGinn argues his Colorado menacing conviction should not have been classified as a
person offense because it is broader than any comparable Kansas statute in effect at the time he
committed the current crime of conviction. McGinn claims the sentencing court's m.sclassif.cation in
which, in turn, caused the court to impose an
this regard resulted in a higher criminal history score
that did not conform to the applicable statutory provision in terms of the punishment
illegal sentence
authorized.
considered when determining a defendant's [*5]
In accordance with the KSGA, prior convictions are
21-6811£eKl).. Prior convictions include convictions from
criminal history score. K.S.A. 2017 Sup_&-------both Kansas and out-of-state jurisdictions as well as juvenile adjudications. K.S.A. 2017 Supp._^
HUM, But constitutional considerations have led to limits on the process of classifying prior
convictions:
"The constitutional protections described in Apprendi_v New Jersey. 530 U.S. 466, 120 S^,
district court, for purposes of
Ct. 2348, 147 i . Fd. 2d 435 (2000). are implicated when a
current conviction, makes findings of fact at
enhancing a defendant's sentence for a
sentencing that go beyond merely finding the existence of a prior conviction or the
statutory elements that made up the prior conviction

Dickev. 301 Kan. 1018. 350 P.3d

1054. Svl. 11 Zout-of-state conviction for criminal
Within those bounds, Kansas courts follow two steps to classify an
misdemeanor or a felony. To do so,
history. First, the court must categorize the prior conviction as a i
convicting jurisdiction's classification of the conviction as a felony or
the court defers to the
71 -6811fe’>(2j(Aj. The crime of menacing in Colorado can be
misdemeanor crime. K.S.A. 201? Supp.
the circumstances. See Colo. Rev. Stat. § 18-3-206.
either a misdemeanor or a felony, depending on
felony. Thus, Kansas will score McGinn's prior crime
McGinn does not dispute that his conviction was a
as a felony.
In the second step, we
norcnn nr

must determine whether the out-of-state [*6] felony should be classified as a

nnnnprsnn felonv.

With regard to this determination, K S.A. 2017Supjx, 71-6R1 lfeV3I

SC KIOSK 4
provides guidance: "In designating a crime as person or nonperson, comparable offenses under the
criminal code in effect on the date the current crime of conviction was committed shall be
Kansas
referred to." (Emphasis added.) If there is no comparable crime, the court should classify the
conviction as a

nonperson crime. But if there is a comparable offense and the Kansas crime is

crime, the out-of-state conviction should also be classified as a person crime.
classified as a person
See ir q a 2017 Sudd. 21-6811(el(3). Our Supreme Court recently clarified the requirements for an
out-of-state crime to be comparable:
"For an out-of-state conviction to be comparable to an offense under the Kansas criminal
code, the elements of the out-of-state crime cannot be broader than the elements of the
Kansas crime,

In other words, the elements of the out-of-state crime must be identical

than, the elements of the Kansas crime to which it is being referenced."
to, or narrower
State v. Wrtrirh 107 Kan. 552. 562. 412 P.3d 984 (20.181.
committed his current crimes of conviction in September 2000. Thus, we must compare Colo,
McGinn
Rev. Stat. S 18-3-206 with the Kansas criminal statutes in effect at that time. See K.S.A. 2017 Supp,
i McGinn committed his current crimes of conviction, Kansas defined
71-68llfeim. When [*7]
"intentionally placing another person in reasonable apprehension of immediate bodily
assault as
harm " K.S.A. 21-3408. Aggravated assault was defined as an assault committed: "(a) With a deadly
; (b) while disguised in any manner designed to conceal identity; or "(c) with intent to commit
weapon
any felony." K.S.A. 21-3410.
18-3-206, "[a] person commits the crime of menacing if, by any threat or
Under Colo. Rev. Stat. §
physical action, he or she knowingly places or attempts to place another person in fear of imminent
serious bodily injury." The crime is a felony if committed: "(a) By the use of a deadly weapon or any
article used or fashioned in a manner to cause a person to reasonably believe that the article is a
deadly weapon; or (b) By the person representing verbally or otherwise that he or she is armed with a
» Colo. Rev. Stat. 5 18-3-206. Although McGinn admits that he committed the crime of
deadly weapon
felony menacing, it is unclear whether his conviction was under subsection (a) or £bl.
For the Kansas crime of aggravated assault, McGinn does not dispute that Colo . Rev. Stat. 5 18-3-206
narrower than K.S.A. 21-3410 in most respects. But McGinn argues that the
is either identical to or
Colorado menacing statute is broader because, unlike the Kansas [*8] aggravated assault statute,
Colo. Rev. Stat. 5

18-3-2061 TUbl criminalizes conduct where a deadly weapon is only suggested or

implied.
McGinn's argument has merit. Relevant here, K.S.A. 21-3410(.a_l prohibits the commission of an
assault ”[w]ith a deadly weapon." But Colo. Rev. Stat. 5 18-3-206( 1XM does not require the actual
"representing verbally or otherwise that
_ - of a deadly weapon. Instead, it merely requires a person
use
he or she is armed with a deadly weapon." Colo. Rev. Stat. 5 18-3-206(l)(bt. Because McGinn's
Colorado conviction could have resulted from conduct exceeding Kansas' definition of aggravated
comparable. See Wetrich, 307 Kan.
assault, the district court erred in finding that the two crimes were
at 562.
the State alternatively argues that Colo. Rev. Stat. 5 18-3-206(l)(bl is comparable to
Nevertheless,
21-3408. Kansas' simple assault statute. As previously stated, K.S.A. 21-3408 defines assault
K.S.A.
as "intentionally placing another person in reasonable apprehension of immediate bodily harm."
Assault is a person crime. See K.S.A. 21-3408. Colo. Rev. Stat. 5 18-3-206(.l,KM defines felony
menacing as a "person representing verbally or otherwise that he or she is armed with a deadly
weapon

." Under the identical-or-narrower rule set forth in Wetrich, these crimes are comparable

__ ___ unrlpr Chin.

Rev. Stat. 6 18-3-206(HM could not have resulted from

X KIOSK 4

crime and
the sentencing court properly classified McGinn's Colorado menacing conviction as a person
the district court did not err in denying McGinn's motion to correct an illegal sentence. See SUS^
am Kan.vna 710 h4R P.nd 516 (20151 (If district court reaches correct result, its decision
will be upheld even though it relied upon wrong ground or assigned erroneous reasons for its
decision).
a prior
conviction as a person offense,
contrary to the Kansas Supreme Court's ruling in State v. Tvorv. 273 Kan. 44,
that his arguments are
P 3d 781 (2002). but suggests that Ivory was wrongly decided . The Kansas Supreme Court
46-48. 41
' indication that it is departing from its position in fvory; thus, we are duty bound to
has shown no
. m
^67 P.3ri 1108 (20151; States Meyer,51Kam_AeQi
follow it. See State v. Barber. 302 Kan
74 1066. 1077. 360 P.3d 467 f2015).
Affirmed.

About
LexisNexis®

Privacy
Policy

Terms &
Conditions

Copyright © 2019 LexisNexis.
All rights reserved.

